Supreme Court, U.S.
FILED

WAIVER

JAN 2 8 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-6443

Scott Myers

Bucca, et al.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of•certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
E I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

PeLA

Signature
Date-

November 30, 2020

(Type or print) Name

Crystal R. Peck
E Mr. E Ms. E Mrs.

Firm

Bailey, Johnson & Peck, P.C.

Address

5 Pine West Plaza, Suite 507

City & State
Phone

E Miss

Albany, NY

518-456-0082

Zip
Email

12205

CRPeck@BaileyJohnson.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Scott Myers

RECEIVED
FEB - 9 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

